U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

April 12, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: May-Shaw v. United States, No. 20-6905
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 4,
2021. The government’s response is now due, after one extension, on April 19, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including May 10, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates. The government has agreed not to seek a further
extension of its time to respond.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-6905
MAY-SHAW, CHRISTOPHER PAYTON
USA

PATRICK J. HANLEY
214 E. FOURTH STREET
COVINGTON, KY 41011
P.HANLEY@ATT.NET

